Appendix A

1
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2341
Myron Hubbard
Appellant
v.
Missouri Department of Mental Health
Appellee
Appeal from U.S. District Court for the Western
District of Missouri - Jefferson City
(2:18-cv-04201-NKL)

ORDER
The petition for rehearing en banc is denied.
The petition for rehearing by the panel is also
denied.
December 18, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
Appellate Case: 19-2341

Page: 1

12/18/2019 Entry ID: 4863221
Appendix A

Date Filed:

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2341
Myron Hubbard
Appellant
v.
Missouri Department of Mental Health
Appellee
Appeal from U.S. District Court for the Western
District of Missouri — Jefferson City
(2:18-cv-04201-NKL)
JUDGMENT
Before LOKEN, KELLY, and STRAS, Circuit Judges
Appellant’s motion to file an overlength brief
is denied.
This court has reviewed the original file of the
United States District Court. It is ordered by the
court that the judgment of the district court is
summarily affirmed. See Eighth Circuit
Rule 47A(a).
October 24, 2019
Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
Appellate Case: 19-2341

Page: 1

10/24/2019 Entry ID: 4845229
Appendix A

Date Filed:

Appendix B

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MISSOURI
CENTRAL DIVISION
MYRON HUBBARD,
Plaintiff,

)
)
)

v.

) No. 2:18-cv-04201-NKL
)

MISSOURI DEPARTMENT)
OF MENTAL HEALTH,

)
)

Defendant.

)

ORDER
Pending before the Court is defendant
Missouri Department of Mental Health’s motion to
dismiss, Doc. 10. For the following reasons, the
Department’s motion is granted.
I. Introduction
Plaintiff Myron Hubbard worked as a
psychiatric nurse for the Missouri Department of
Mental Health until he was denied leave and
constructively discharged in 2008. Mr. Hubbard
brought Title VII discrimination and Family Medical
Leave Act claims against the Department and others
pertaining to his discharge. See generally Hubbard
Appendix B

v. St. Louis Psychiatric Rehab. Ctr., No. 11-2082,
2013 WL 4052908 (E.D. Mo. Aug. 12, 2013)
(Hubbard I). Following the dismissal of his
Complaint with prejudice in Hubbard I, Mr.
Hubbard brought another suit against the
Department, this time alleging violation of Title VI
for the same conduct. His complaint was dismissed
with prejudice based on res judicata. See generally
Hubbard v. Missouri Dep’t of Mental Health, No. 15722, 2016 WL 593585 (E.D. Mo. Feb. 12, 2016)
(Hubbard II).
Mr. Hubbard is currently a temporary hourly
employee for the South Carolina Department of
Mental Health. Mr. Hubbard, proceeding pro se,
now alleges that the Missouri Department of
Mental Health 1) committed fraud on the court in
Hubbard I and II by misrepresenting whether it

Case 2:18-cv-04201-NKL Document 14 Filed
12/19/18 Page 1 of 6
Appendix B

receives federal funds for the purpose of providing
employment, resulting in a denial of Mr. Hubbard’s
due process rights, and 2) violated Title VI, and
continues to violate Title VI through the Missouri
Attorney General’s Office and the South Carolina
Department of Mental Health’s retaliatory acts
against him. The Department argues that Mr.
Hubbard has failed to state a claim
upon which relief can be granted because 1) his
claims are barred by res judicata, and 2) Hubbard
has not pled new facts sufficient to find the
Department liable under Title VI. 1 Doc. 11
(Suggestions in Support).
II. Discussion
“To survive a motion to dismiss under Rule
12(b)(6), ‘a complaint must contain sufficient factual
matter, accepted as true, to state a claim to relief
that is plausible on its face.’”2 Kelly v.
City of Omaha, 813 F.3d 1070, 1075 (8th Cir. 2016)
(citation omitted). “[A] court should construe the
complaint liberally in the light most favorable to the
plaintiff,” Eckert v. Titan Tire Corp., 514 F.3d 801,
806 (8th Cir. 2008), and “grant[| all reasonable
inferences in favor of the plaintiff.” Crooks v. Lynch,
557 F.3d 846, 848 (8th Cir.2009). Further, “pro se
litigants are held to a lesser pleading standard than
other parties,” Topchian v. JPMorgan Chase Bank,
N.A., 760 F.3d 843, 849 (8th Cir. 2014), meaning
that when “the essence of an allegation is
discernible, [the court construes] the complaint in a
way that permits the layperson’s claim to be
considered within the proper legal framework.”
Appendix B

Stone v. Harry, 364 F.3d 912, 915 (8th Cir. 2004).
Dismissal is required, however, when “the
allegations show on the face of the complaint there is
some insuperable bar to relief.” Benton v. Merrill
Lynch & Co., 524 F.3d 866, 870 (8th Cir. 2008).

1 Because the Court finds these grounds sufficient,
the Missouri Department of Mental Health’s other
proffered grounds for dismissal are not addressed.
2 The Department cites Mo. Sup. Ct. R. 55.27(6) as
the basis for its motion to dismiss. The Court
applies Fed. R. Civ. P. 12(b)(6), the federal
equivalent of the Missouri state rule.

Case 2:18-cv-04201-NKL Document 14 Filed
12/19/18 Page 2 of 6
Appendix B

The Department first argues that Mr.
Hubbard’s fraud and Title VI claims are barred by
res judicata. Res judicata prevents re-litigation of a
claim when “(1) the first suit resulted in a final
judgment on the merits; (2) the first suit was based
on proper jurisdiction; (3) both suits involve the
same parties . . . ; and (4) both suits are based upon
the same claims or causes of action.” Elbert v.
Carter, 903 F.3d 779, 782 (8th Cir. 2018) (citation
omitted). “[Wjhether two claims are the same . . .
depends on whether the claims arise out of the same
nucleus of operative fact or are based upon the same
factual predicate.” Murphy v. Jones, 877 F.2d 682,
684-85 (8th Cir. 1989).
Mr. Hubbard has twice brought complaints
against the Missouri Department of Mental Health.
Both prior complaints have been dismissed with
prejudice, which amounts to judgement on the
merits.3 Jaramillo v. Burkhart, 59 F.3d 78, 79 (8th
Cir. 1995) (“[Dismissal with prejudice operates as a
rejection of the plaintiffs claims on the merits and
res judicata precludes further litigation.”). Neither
party contests that jurisdiction in Hubbard I and II
was proper. Mr. Hubbard, however, argues that res
judicata does not apply because 1) the Department’s
fraud on the court continued in Hubbard II and 2)
one of his claims is based on facts that occurred
either during or after the last trial.
In Hubbard II, Mr. Hubbard argued that his
Title VI claim should not be barred by Hubbard I
because the Department fraudulently concealed the
fact it received federal funds. Hubbard II, 2016 WL
593585, at ** 3-4. He makes the same allegations
Appendix B

here, but this time, based on statements the
Department made during Hubbard II. Specifically,
Mr. Hubbard points to the

3 Although Mr. Hubbard argues that premature
dismissal in his prior cases resulted in a denial of
due process, Mr. Hubbard was given the opportunity
to be heard when he was afforded leave to amend his
complaint multiple times and respond to the
multiple motions to dismiss filed in Hubbard I. See
Hubbard I, 2013 WL 4052908, at ** 1-2; Hubbard v.
St. Louis Psychiatric Rehab. Ctr., 556 F. App’x 547,
548 (8th Cir. 2014) (affirming denial of leave to file
fifth amended complaint given the prior
opportunities Mr. Hubbard had to amend).

Case 2:18-cv-04201-NKL Document 14 Filed
12/19/18 Page 3 of 6
Appendix B

Department’s statement in its motion to dismiss—
that Hubbard “has not alleged, nor can he allege,
that any federal funds received by the Defendants
were designed to provide employment”—as
evidence that the Department denied receiving
federal funds. Doc. 12 (Suggestions in Opposition), If
35. Mr. Hubbard asserts that the Department did
receive funds designed to provide employment
through the American Recovery and Reinvestment
Act of 2009, the Nurse Loan Repayment Program,
Disproportionate Share Hospital payments, and
Missouri General Revenue Funds. Therefore,
according to Mr. Hubbard, the Department’s prior
statement was a misrepresentation to the Hubbard
II court.
First, the pages of explanation devoted to Mr.
Hubbard’s argument regarding the fraud exception
to the res judicata doctrine in Hubbard II illustrate
that his fraud claim is itself barred by res judicata.
See Hubbard II, 2016 WL 593585, at ** 3-4.
Although his fraud allegations differ to the extent
his claim now addresses the Department’s
statements in Hubbard II rather than Hubbard I,
“[t]he gravamen of both [actions] was the alleged
concealment from the [Eastern District] court of the
[Department’s funding status].” Landscape Prop.,
Inc. v. Whisenhunt, 127 F.3d 678, 683 (8th Cir.
1997). Therefore, Mr. Hubbard’s allegations
regarding fraud have already been adjudicated and
are barred by res judicata.
Second, Mr. Hubbard’s allegations of fraud do
not save the portion of his Title VI claim that has
already been litigated for the same reasons stated in
Appendix B

Hubbard II. See Hubbard II, 2016 WL 593585, at **
3-4 (discussing the fraud exception). Even assuming
that the Department received federal funds for the
purpose of providing employment, the Department’s
statement in its motion to dismiss did not constitute
fraud. As the Hubbard II court explained, “newly
discovered evidence does not preclude the
application of res judicata unless the evidence . . .
could not have been discovered with due diligence.”
Id. at * 3 (quoting Saabirah El v. City of New York,
300 Fed.

Case 2:18-cv-04201-NKL Document 14 Filed
12/19/18 Page 4 of 6
Appendix B

App’x 103, 104 (2nd Cir. 2008)). Since Mr. Hubbard
conceded that he discovered the Department’s
funding status on his own, the fraud exception to the
res judicata doctrine does not apply. Accordingly,
Mr. Hubbard’s Title VI claim, to the extent it is
based on his termination in 2008 and application for
employment in 2010, fails because these claims have
already been adjudicated. See Doc. 1-2, pp. 151-211
(Petition); Hubbard I, 2013 WL 4052908, at * 1;
Hubbard II, 2016 WL 593585, at ** 1—2.
Mr. Hubbard argues that res judicata does not
apply to his Title VI claim for retaliation, however,
because the alleged conduct occurred after both
Hubbard I and II. The Department argues that Mr.
Hubbard’s new allegations do not state a claim
against the Department because he only pleads
discriminatory acts committed by others.
Title VI provides that “[n]o person in the
United States shall, on the ground of race, color, or
national origin, be excluded from participation in, be
denied the benefits of, or be subjected to
discrimination under any program or activity
receiving Federal financial assistance.” 42 U.S.C. §
2000d. In addition to pleading “Federal financial
assistance,” Valentine v. Smith, 654 F.2d 503,
512 (8th Cir. 1981), a Title VI retaliation claim
requires a showing “(1) that [Hubbard] engaged in
protected activity; (2) that [the defendant] took a
material adverse employment action against [him],
and (3) that a causal connection existed between the
protected activity and the adverse action.” Peters v.
Jenney, 327 F.3d 307, 320 (4th Cir. 2003).
With respect to the second element, Mr.
Appendix B

Hubbard asserts that 1) the Missouri Department of
Mental Health’s attorney, the Missouri Attorney
General’s Office, retaliated against him by
misrepresenting his income and falsifying
certificates of service in a child support matter, and
2) his current employer, the South Carolina
Department of Mental Health, retaliated against
him by assisting the Missouri Attorney General in
submitting false evidence in the child support matter

Case 2:18-cv-04201-NKL Document 14 Filed
12/19/18 Page 5 of 6
Appendix B

and discriminating against him during the course of
his employment in South Carolina. Doc. 1-2, pp.
142-51 (Petition).
Even taking these statements as true, Mr.
Hubbard has not shown that the defendant took
material adverse employment action against him,
nor has Mr. Hubbard provided any basis for
imputing the actions of the Attorney General or the
South Carolina Department of Mental Health to the
Missouri Department of Mental Health.4 In other
words, he has failed to show that the defendant in
this case, as opposed to someone else, took material
adverse employment action against him. For this
reason, Mr. Hubbard has failed to state a claim for
retaliation.
III. Conclusion
For the foregoing reasons, the Department of
Mental Health’s motion to dismiss, Doc. 10, is
granted. Mr. Hubbard’s claims against the Missouri
Department of Mental Health are dismissed with
prejudice.

s/ NANETTE K. LAUGHREY
NANETTE K. LAUGHREY
United States District Judge
Dated: December 19. 2018
Appendix B

4 In arguing fraud on the court, Mr. Hubbard asserts
that the Department “gave complete authority to
their attorney to act on their behalf’ and that “the
Defendants benefitted from the acts of their
attorney.” Doc. 1-2, p. 91 (Petition). ‘“[A] plaintiffs
obligation to provide the grounds of his entitlement
to relief requires more than labels and
conclusions[.]”’ Benton, 524 F.3d at 870 (quoting
Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555
(2007)). Thus, even if Mr. Hubbard intends to argue
that the Attorney General was acting on behalf of
the Department of Mental Health during the child
support proceeding, Mr. Hubbard’s conclusory
statements are insufficient.
Case 2:18-cv-04201-NKL Document 14 Filed
12/19/18 Page 6 of 6
Appendix B

Appendix C

United States Court of Appeals
For the Eighth Circuit
No. 16-1507
Myron Hubbard
Plaintiff - Appellant
v.
Missouri Department of Mental Health;
St.Louis Psychiatric Rehabilitation Center;
Metropolitan St. Louis Psychiatric Center
Defendants — Appellees
Appeal from United States District Court for the
Eastern District of Missouri - St. Louis
Submitted: October 20, 2016
Filed: October 24, 2016
[Unpublished]
Before SMITH, BENTON, and, SHEPHERD,
Circuit Judges.
PER CURIAM.
Myron Hubbard appeals the dismissal of his Title
VI action. Having jurisdiction under 28 U.S.C. §
1291, this court affirms.
Appellate Case: 16-1507 Page: 1
Date Filed:
10/24/2016 Entry ID: 4461747
Appendix C

Following de novo review, this court finds the
district court1 properly concluded Hubbard’s claims
are barred by res judicata and that Hubbard was
not entitled to an equitable exception to the
doctrine.See Laase v. Cty. of Isanti, 638 F.3d 853,
856 (8th Cir. 2011) (de novo review of dismissal
based on res judicata); Magee v. Hamline Univ.,
775 F.3d 1057,1059 (8th Cir. 2015) (listing res
judicata factors);Walker v. Trinity Marine
Products, Inc., 721 F.3d 542, 545 (8th Cir. 2013)
(plaintiff invoking equitable estoppel must show
she has changed position to her detriment in
reasonable reliance on another’s misleading
representation). Nor was Hubbard entitled to
relief from the prior judgment, which was affirmed
on appeal, under Fed. R. Civ. P. 60. See Superior
Seafoods, Inc. v. Tyson Foods, Inc., 620 F. 3d 873,
878 (8th Cir. 2010) (Rule 60(d)(3) relief is
extraordinary form of relief, and is available only
when it would be unconscionable to allow judgment
to stand); In re SDDS, Inc., 225 F.3d 970, 972 (8th
Cir. 2000) (Rule 60(b) motion cannot be used to
collaterally attack court of appeals ruling in lieu of
petition for review in United States Supreme
Court).
The judgment is affirmed. The pending motions
are denied as moot.
xThe Honorable Ronnie L. White, United States
District Judge for the Eastern District of Missouri.
Appellate Case: 16-1507 Page: 2 Date Filed:
10/24/2016 Entry ID: 4461747
Appendix C

Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 1 of 10 Page ID #: 561
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
MYRON HUBBARD
Plaintiff

)
)

v.

) No. 4:15CV722 RLW
MISSOURI DEPARTMENT)
OF MENTAL HEALTH,et al)
Defendants,
)
MEMORANDUM AND
ORDER
This matter is before the Court on Defendants'
Motion to Dismiss (ECF No. 14). Also pending are
two Motions for Summary Judgment (ECF Nos. 16,
26) and a Motion to Add Citation of Support and to
Strike (ECF No. 33) filed by the Plaintiff. Upon
review of the motions and related memoranda, the
Court will grant Defendants' Motion to Dismiss
and deny Plaintiffs motions as moot.
Background
On November 29, 2011, Plaintiff filed ,
Complaint against St. Louis Psychiatric
Rehabilitation Center ("SLPRC") for alleged
violations of the Family Medical Leave Act,
29 U.S.C.§ 2601, et seq., ("FMLA").
(Compl., Case No. 4:11CV2082 JAR, ECF
No. 1) Plaintiff amended his Complaint to
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 1 of 10 Page ID #: 561
include the State of Missouri and Missouri
Department of Mental Health ("DMH") and
to add to his FMLA claims allegations of gender
and race discrimination, employment
discrimination, wrongful discharge, and hostile
work environment in violation of Title VII of the
Civil Rights Act of 1964, as amended, 42 U.S.C.
2000e, et seq., the Due Process and Equal
Protection Clauses of the Fourteenth Amendment
to the U.S. Constitution, and the Civil Rights Act
of 1991. (Am. Compl. iJ 4, Case No. 4:11CV2082
JAR, ECF. No. 46) On April

Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 2 of 10 Page ID #: 561
2, 2013, United States District Judge John A. Ross
dismissed Plaintiffs Amended Complaint with
prejudice. (Mem. and Order of 4/2/13, Case No.
4:11CV2082 JAR, ECF Nos. 58, 59) Plaintiff then
filed a motion to reconsider, and on August 12, 2013,
Judge Ross again granted Defendants' motion to
dismiss and dismissed Plaintiffs Amended
Complaint with prejudice. (Mem. and Order of
8/12/13, Case No.4:llCV2012 JAR, ECF Nos. 78, 79)
The Eighth Circuit Court of Appeals affirmed Judge
Ross' order dismissing Plaintiffs amended pro se
complaint. Hubbard v. St. Louis Psychiatric Rehab.
Ctr., 556 Fed. App'x 547 (8th Cir. 2014).
On May 6, 2015, Plaintiff filed a Complaint
against Defendant DHM. (Compl., ECF No. 1) He
filed an Amended Complaint against DHM,
SLPRC, and Metropolitan St. Louis Psychiatric
Center ("MSLPC") on May 13, 2015. (Am. Compl.,
ECF No. 3) In the Amended Complaint, Plaintiff
alleges that Defendants wrongfully denied FMLA
benefits in violation of Title VI of the Civil Rights
Act of 1964,42 U.S.C. § 2000d, et seq., prohibiting
discrimination by recipients of federal financial
assistance. (Am. Compl. ~ 1, ECF No. 3) Plaintiff
specifically claims that the Defendants
discriminated against him based on his race,
African-American,and discriminatorily denied
him FMLA leave while Defendants were receiving
federal funds. (Id.) Defendants filed a Motion to
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 2 of 10 Page ID #: 561
Dismiss on July 13, 2015, arguing that Plaintiffs
Amended Complaint is barred by the doctrine of
res judicata. Further, Defendants assert that
Plaintiff has failed to state a claim under Title
VI. (Mot. to Dismiss, ECF No. 14) In addition to
filing a response in opposition to Defendant's
Motion to Dismiss, Plaintiff has filed a Motion for
Relief from Judgment under Fed. R. Civ. P. 60
and a Motion for Summary Judgment (ECF No.
16); a second Motion for Summary Judgment
(ECF No. 26); and a Motion to Add Citation of
Support to Summary Judgment and Motion to
Strike (ECF No. 33).

Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 3 of 10 Page ID #: 561
Legal Standards
A complaint must be dismissed under Federal
Rule 12(b)(6) for failure to state a claim upon which
relief can be granted if the complaint fails to plead
"enough facts to state a claim to relief that is
plausible on its face." Bell Atlantic Corp. v. Twombly,
550 U.S. 544,570 (2007). "Factual allegations must
be enough to raise a right to relief above the
speculative level .... " Id. at 555. Courts must
liberally construe the complaint in the light most
favorable to the plaintiff and accept the factual
allegations as true. See Schaaf v. Residential
Funding Corp., 517 F.3d 544, 549 (8th Cir. 2008)
(stating that in a motion to dismiss, courts accept as
true all factual allegations in the complaint);Eckertv.
Titan Tire Corp., 514 F.3d 801,806 (8th Cir. 2008)
(explaining that courts should liberally construe the
complaint in the light most favorable to the plaintiff).
However, "[w]here the allegations show on the face of
the complaint there is some insuperable bar to relief,
dismissal under Rule 12(b)(6) is appropriate." Benton
v._Merrill Lynch & Co., 524 F.3d 866, 870 (8th Cir.
2008) (citation omitted).
To dismiss a complaint for lack of subject matter
jurisdiction pursuant to Rule 12(b)(1), '"the complaint
must be successfully challenged on its face or on the
factual truthfulness of its averments.'" Swiish v.
Nixon, No. 4:14-CV-2089 CAS, 2015 WL 867650, at
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 3 of 10 Page ID #: 561
*2 (E.D. Mo. Feb. 27, 2015)(quoting Titus v. Sullivan,
4 F.3d 590, 593 (8th Cir. 1993)). "The standard for a
motion to dismiss under Rule 12(b )(6) applies
equally to a motion to dismiss for lack of subject
matter jurisdiction which asserts a facial challenge
under Rule 12(b)(1)." Id.
Discussion
Defendants first argue that res judicata
bars the relitigation of Plaintiffs claim. Plaintiff
asserts that res judicata does not apply because
Defendants are equitably estopped from
benefitting from their wrongdoing; Defendants
fraudulently concealed the fact that they

Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 4 of 10 Page ID#: 561
received federal funds, thus preventing Plaintiff
from making a Title VI claim in the previous
litigation; and the judgment was procured through
fraud under Federal Rule of Civil Procedure 60.
The Court liberally construes Plaintiffs pro se
pleadings. Jackson v. Nixon, 747 F.3d 537, 544
(8thCir. 2014).
“Under claim preclusion, also called res
judicata, 'a final judgment on the merits of an
action precludes the parties ... from relitigating
issues that were or could have been raised in that
action.'" Knutson v. City of Fargo, 600 F.3d 992,
996 (8th Cir. 2010) (quoting Allen v. McCurry, 449
U.S. 90, 94 (1980)). To establish res judicata, "a
party must show: '(1) the first suit resulted in a
final judgment on the merits; (2) the first suit was
based on proper jurisdiction; (3) both suits involve
the same parties (or those in privity with them);
and (4) both suits are based upon the same claims
or causes of action.'" Magee v. Hamline Univ., 775
F.3d 1057, 1059 (8thCir. 2015) (quoting Yankton
Sioux Tribe v. US. Dep't of Health & Human
Servs., 533 F.3d 634, 639 (8th Cir. 2008)). In
determining whether a second lawsuit is
precluded, courts look to "'whether the claims arise
out of the same nucleus of operative facts as the
prior claim.'" Id. (quoting Costner v. URS
Consultants,Inc.,153 F ,3d 667, 673 (8th Cir.
1998)). Where the claims arise from the same set of
facts, "[t]he legal theories of the two claims are
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 4 of 10 Page ID #: 561
relatively insignificant because'a litigant cannot
attempt to relitigate the same claim under a
different legal theory of recovery.'" United States v.
Gurley, 43 F.3d 1188, 1195 (8th Cir. 1994) (quoting
Poe v. John Deere Co., 695 F.2d 1103, 1105 (8th
Cir. 1982)). Further, even where the second suit
names a new party, res judicata still applies where
"a defendant stands in privity with a defendant in
the prior suit." Daley v. Marriott Int'/, Inc., 415
F.3d 889, 896-97 (8th Cir. 2005).

Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 5 of 10 Page ID #: 561
Plaintiff does not dispute that jurisdiction in the
previous action was proper and that the first suit
before Judge Ross resulted in a final judgment on the
merits. Similarly, he acknowledges that both suits
are similar. In addition, Plaintiff asserts in his
Amended Complaint that MSLPC, along with
SLPRC, are facilities of the DMH. (Am. Compl. P. 1,
ECF No. 3) Therefore, MSLPC and the Defendants in
the first suit "are in privity because they have 'a
close relationship, bordering on near identity."'Daley,
415 F.3d at 897 (quoting Gurley, 43 F.3d at 1197)
Further, Plaintiffs Amended Complaint pertains to
alleged discrimination while he was employed at the
SLPRC, as he alleged in the first suit. (Compare Pl.'s
4-17, ECF No. 3 with Pl.'s Am.
Am. Compl.
Compl. ~~ 16-17, 38-47, Case No. 4:11CV2082
JAR, ECF No. 45) The Court thus finds as an
initial matter that because Plaintiffs Title VI
complaint involves the same parties or their
privies, and his claim arises from the same nucleus
of operative facts as the first case, Plaintiffs claim
is barred by the doctrine of res judicata.
However, Plaintiff argues that exceptions to
the res judicata doctrine exist such that this Court
should not bar Plaintiffs cause of action.
Specifically, Plaintiff argues that Defendants
fraudulently withheld the fact that they received
federal funding, thus preventing Plaintiff from
raising a Title VI claim in the previous suit.
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 5 of 10 Page ID #: 561
Additionally, he claims that the Title VI claim did
not exist at the time of the previous case. The
record belies Plaintiffs assertion.
First, Plaintiff is unable to demonstrate that
Defendants fraudulently concealed the fact that it
received federal funding. "As a general rule, newly
discovered evidence does not preclude the
application of res judicata unless the evidence was
either fraudulently concealed or could not have
been discovered with due diligence." Saabirah El v.
City of New York, 300 Fed. App'x 103, 104 (2nd
Cir. 2008) (citation omitted). Conclusory
allegations of fraud are

Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 6 of 10 Page ID #: 561
insufficient to demonstrate fraudulent
concealment. Id. Here, Plaintiff fails to point to
any evidence showing that the Defendants
fraudulently withheld their federal funding
status. Id. (finding plaintiffs allegations to be
wholly conclusory and noting that discovery had
not taken place when refusing to find fraudulent
concealment of evidence to overcome res judicata).
Indeed, no discovery had taken place prior to
dismissal of Plaintiffs first cause of action.
Further, Plaintiff concedes that he discovered this
fact on his own and while the former case was still
pending. Thus, Plaintiff is unable to show
fraudulent concealment on the part of Defendants,
and his Title VI claim could have been, and
eventually was, discovered with due diligence.
In addition, Plaintiff contends that this Court
should estop Defendants from using res judicata in
this instance because Defendants unfairly took
advantage of Plaintiff through false language and
induced Plaintiff to not bring a Title VI claim in
the previous action. Assuming that equitable
estoppel is applicable in this context, a plaintiff
"must show that [he] has changed [his] position to
[his] detriment in reasonable reliance on another's
misleading representation." Walker v. Trinity
Marine Prods., Inc., 721 F.3d 542, 545 (8th Cir.
2013) (citation omitted). Here, Plaintiff does not
allege that the Defendants made any
representations upon which Plaintiff detrimentally
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 6 of 10 Page ID#: 561
relied, and the Court finds that Plaintiff has failed
to establish equitable estoppel.
Plaintiff also argues that this Court should
apply Fed. R. Civ. P. 60 and overturn the judgment
in the previous litigation.1 Under certain
circumstances, Rule 60 provides relief from

Plaintiff cites to Rule 60(b) as grounds for relief.
However, that provision applies only to relief from
the final judgment by the issuing court. This Court
did not issue the judgment from which Plaintiff seeks
relief, and therefore, the grounds cited by Plaintiff
are not applicable. See, e.g., Greater St. Louis
Const. Laborer's Welfare Fund v. Tricamo
Contracting Co., Inc., No. 4:08CV1479 JCH, 2011
WL 572457 (E.D. Mo. Feb. 15, 2011) (denying
defendant's Rule 60(b)
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 7 of 10 Page ID #: 561
a judgment, despite the principles of resjudicata.
Hamilton v. PAS, Inc., No. , 2015 WL 2120539, at
*2 (E.D. Ark. Apr. 27, 2015). "Rule 60(d)(3) permits
an independent action to set aside a previous
judgment due to fraud on the court when the
previous case involved egregious misconduct
representing a corruption of the judicial process,
such as bribery of a judge or jury or fabrication of
evidence by counsel." Id (citations omitted).
"[Rjelief is only available where it would be
manifestly unconscionable to allow the judgment to
stand." Superior Seafoods, Inc. v.Tyson Foods, Inc.,
620 F.3d 873, 878 (8th Cir. 2010) (citation and
internal quotation omitted). Thus, relief through an
independent action in equity that alleges fraud on
the court is an extraordinary form of relief. Id
In the instant case, Plaintiff has not
demonstrated that he is entitled to such
extraordinary relief from the judgment issued by
Judge Ross. "[Fjraud on the court is distinct from
mere fraud upon a party." Id Plaintiff has pointed
to no evidence of fraud on the court,
In the
previous case, the court allowed Plaintiff to amend
his complaint four times over an 18 month period.
Hubbard v. St. Louis Psychiatric Rehab. Ctr., 556
Fed. App'x 547 (8th Cir. 2014); Hubbardv. St. Louis
Psychiatric Rehab. Ctr., No. 4:ll-CV-2082-JAR,
2013 WL 4052908 (E.D. Mo. Aug. 12, 2013). Judge
Ross noted that the Court "allowed Plaintiff
numerous opportunities to plead his claim, and he
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 7 of 10 Page ID #: 561
has file four complaints against Defendants, each
in response to their motion to dismiss." Hubbard,
2013 WL 4052908, at *3. With each amended
complaint, Defendants filed a motion to dismiss
responding to the new complaint. Defendants did
not conceal information regarding its funding
status from the court, as such status was not at
issue. Thus, for the foregoing reasons, the Court
finds that Plaintiff is unable

motion to vacate the court's prior order because
defendant failed to show that special
circumstances justified vacating the order).
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 8 of 10 Page ID #: 561
to overcome the application of res judicata to the
present case, and his Amended Complaint will be
dismissed on that basis.
Out of an abundance of caution, however, the
Court notes that Plaintiff is unable to state a claim
under Title VI, which provides that "[n]o person in
the United States shall, on the ground of race, color,
or national origin, be excluded from participation in,
be denied the benefits of, or be subjected to
discrimination under activity received Federal
financial assistance." 42 U.S.C. § 2000d. Defendants
argue that Plaintiffs claim should be dismissed
because he has not alleged, nor can he allege, that
the federal funds received by Defendants were
designed to provide employment.
"To establish a prima facie case under Title VI, a
plaintiff must demonstrate that [his] race, color, or
national origin was the motive for the alleged
discriminatory conduct." Nelson v. Special Admin.
Bd. o/St. Louis Public Schs., 873 F. Supp. 2d 1104,
1115 (E.D. Mo. 2012) (citation omitted).
While individuals may file a suit under Title
VI for intentional discrimination, "the
statute provides that a plaintiff may allege
a Title VI claim in the employment context
only where the statutory grant of funds or
the federally assisted program at issue is
specifically intended to provide
employment." Id. (citation omitted).
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 8 of 10 Page ID#: 561
Plaintiffs Amended Complaint is void of any
indication that the Missouri Department of
Mental Health or the two Defendant
facilities are designed with a primary
objective of providing employment. Id.
Further, the Court finds that discovery
would not reveal that DMH's purpose is
anything other than the provision of mental
health services. Id. Indeed, DMH provides
programs for drug and alcohol abuse;
mental illness; and developmental
disabilities. See DMH Programs, available
at http://dmh.mo.gov/programs.html; see
also Baugh v. Ozarks Area Cmty. Action
Corp., No.09-03177-CV-S-DGK, 2010 WL
1253718, at *4 (W.D.Mo. Mar. 31, 2010)
(noting

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 9 of 10 Page ID #: 561
that defendant's primary objective did not
appear to be providing employment where
the website described seven programs,
including family planning and housing). In
addition, while DMH does provide
"employment services" in its programs,
these services are to enhance "community
employment options for persons with
developmental disabilities." See Youth
Transition and Employment Services,
available at
http://dmh.mo.gov/dd/progs/employment.ht
ml. Plaintiff does not fall within this
category. The Court therefore finds that
Plaintiff has failed to state a claim for relief
under Title VI and his Amended Complaint
should be dismissed on that basis.2
On a final note, the Court has thoroughly
reviewed Plaintiffs two motions for summary
judgment, and the motion to add citations and to
strike. In those documents, Plaintiff presents the
same facts and arguments as those contained in the
previous cause of action. These pleadings further
buttress the Court's finding that res judicata applies
to this suit. Further, because the Court has
determined that dismissal is warranted in this case,
the granting of Defendants' Motion to Dismiss
renders moot Plaintiffs motion for summary
judgment. Adem v. JeffersonMem '1 Hosp. Ass'n, No.
4:11-CV-2102-JAR, 2012 WL 5493856 (E.D. Mo. Nov.
13, 2012).
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 9 of 10 Page ID #: 561
Accordingly,
IT IS HEREBY ORDERED that Defendants'
Motion to Dismiss (ECF No. 14) is GRANTED.

defendants also contend that SLPRC and
MSLPC are not entities subject to suit and that
Plaintiffs Title VI claim is barred by the statute
of limitations. Because the Court finds that
Plaintiffs Amended Complaint is barred by the
doctrine of res judicata and otherwise fails to
state a claim, the Court need not address
Defendants' other grounds for dismissal. See
Marez v. Saint-Gobain Containers, Inc., No.
4:09CV999 MLM, 2009WL 5220160, at *6 (E.D.
Mo. Dec. 31,2009).
Appendix D

Case: 4:15-cv-00722-RLW Doc.#: 35 Filed:
02/12/16 Page: 10 of 10 PagelD #: 563
IT IS FURTHER ORDERED that
Plaintiffs Motions for Summary Judgment (ECF
Nos. 16, 26) and Motion to Add Citation of
Support and to Strike (ECF No. 33) are
DENIED as MOOT.
A separate order of dismissal will
accompany this Memorandum and Order. Dated
this 12th day of February, 2016.

RONNIE L. WHITE
UNITED STATES DISTRICT JUDGE

Appendix D

Appendix E

United States Court of Appeals
for the Eighth Circuit
No. 13-2877
Myron Hubbard
Plaintiff - Appellant
v.
St. Louis Psychiatric Rehabilitation Center; State
of Missouri Department of Mental Health
Defendants - Appellees
Appeal from United States District Court for the.
Easter District of Missouri — St. Louis
Submitted: February 6, 2014
Filed: February 11, 2014
[Unpublished]
Before BENTON, BOWMAN, and SHEPHERD,
Circuit Judges.

PER CURIAM.
Appellate Case: 13-2877

Page: 1

02/11/2014 Entry ID: 4122786
Appendix E

Date Filed:

Myron Hubbard appeals the district court’s1
order dismissing his amended pro se complaint
against his former employer the Missouri
Department of Mental Health (MDMH), and the
St. Louis Psychiatric Rehabilitation Center
(Center), the MDMH facility where Hubbard had
worked as a registered nurse. Hubbard asserted
various civil claims, including that defendants
denied him leave he was entitled to under the
Family and Medical Leave Act (FMLA). Upon
careful review, see Butler v. Bank of Am., N.A., 690
F.3d 959, 961 (8th Cir.2012) (de novo review of
dismissal for failure to state claim), we conclude
dismissal was appropriate: defendants were
immune from suit for alleged violations of the
FMLA’s self-care provision, see Coleman v. Court
of Appeals of Md., 132 S. Ct. 1327, 1338 (2012);
Hubbard did not show he had exhausted
administrative remedies before bringing his Title
VII claim, see Richter v. Advance Auto Parts, Inc.,
686 F.3d 847, 850-51 (8th Cir. 2013) (per curiam)
(Title VII exhaustion requirements); and the
Eleventh Amendment barred Hubbard’s other
claims against defendants, see Murphy v. State of
Ark., 127 F.3d 750, 754 (8th Cir. 1997). We further
conclude that the district court did not abuse its
discretion in denying Hubbard leave to amend and
add an additional party, given the many
opportunities Hubbard had to amend his complaint
over the 18-month course of this litigation. See
Page: 2
Appellate Case: 13-2877
02/11/2014 Entry ID: 4122786
Appendix E

Date Filed:

Moses.com Sec., Inc. v. Comprehensive Software
Sys., Inc., 406 F.3d 1052, 1065-66 (8th Cir. 2005).
Accordingly, we affirm. See 8th Cir. R. 47B.

irThe Honorable John A. Ross, United States District
Judge for the Easternl District of Missouri.
Appellate Case: 13-2877

Page: 2

02/11/2014 Entry ID: 4122786
Appendix E

Date Filed:

Appendix F

Rule 11. Signing Pleadings, Motions, and Other
Papers; Representations to the Court;
Sanctions
(a) SIGNATURE. Every pleading, written motion, and
other paper must be signed by at least one attorney
of record in the attorney's name—or by a party
personally if the party is unrepresented. The paper
must state the signer's address, e-mail address, and
telephone number. Unless a rule or statute
specifically states otherwise, a pleading need not be
verified or accompanied by an affidavit. The court
must strike an unsigned paper unless the omission
is promptly corrected after being called to the
attorney's or party's attention.
(b) Representations to the Court. By presenting
to the court a pleading, written motion, or other
paper—whether by signing, filing, submitting, or
later advocating it—an attorney or unrepresented
party certifies that to the best of the person's
knowledge, information, and belief, formed after an
inquiry reasonable under the circumstances:
(1) it is not being presented for any improper
purpose, such as to harass, cause unnecessary
delay, or needlessly increase the cost of litigation;
(2) the claims, defenses, and other legal
contentions are warranted by existing law or by a
nonfrivolous argument for extending, modifying, or
reversing existing law or for establishing new law;
(3) the factual contentions have evidentiary
support or, if specifically so identified, will likely

Appendix F

have evidentiary support after a reasonable
opportunity for further investigation or discovery;
and
(4) the denials of factual contentions are warranted
on the evidence or, if specifically so identified, are
reasonably based on belief or a lack of information.
https://www.law.cornell.edu/rules/frcp/rule 11
18 U.S. Code § 1001. Statements or entries
generally
(a) Except as otherwise provided in this section,
whoever, in any matter within the jurisdiction of the
executive, legislative, or judicial branch of the
Government of the United States, knowingly and
willfully—
(1) falsifies, conceals, or covers up by any
trick, scheme, or device a material fact;
(2) makes any materially false, fictitious, or
fraudulent statement or representation; or
(3) makes or uses any false writing or
document knowing the same to contain any
materially false, fictitious, or fraudulent
statement or entry;
https://www.law.cornell.edu/uscode/text/18/100
1

Appendix F

575.020. Concealing an offense — penalties. —
1. A person commits the offense of concealing an
offense if he or she:
(1) Confers or agrees to confer any pecuniary
benefit or other consideration to any person in
consideration of that person's concealing of any
offense, refraining from initiating or aiding in the
prosecution of an offense, or withholding any
evidence thereof; or
(2) Accepts or agrees to accept any pecuniary
benefit or other consideration in consideration of his
or her concealing any offense, refraining from
initiating or aiding in the prosecution of an offense,
or withholding any evidence thereof.
Title VI Of The Civil Rights Act Of 1964 42
U.S.C. § 2000d Et Seq.
Title VI, 42 U.S.C. § 2000d et seq., was enacted as
part of the landmark Civil Rights Act of 1964. It
prohibits discrimination on the basis of race, color,
and national origin in programs and activities
receiving federal financial assistance. As President
John F. Kennedy said in 1963:
Simple justice requires that public funds, to
which all taxpayers of all races [colors, and
national origins] contribute, not be spent in
any fashion which encourages, entrenches,
subsidizes or results in racial [color or
national origin] discrimination.
Appendix F

